  COMMERCIAL CONTRACT FOR TOTAL LOGISTICS SUPPORT
        OF AIRCRAFT AUXILIARY POWER UNITS


Report No. D-2000-180                  August 31, 2000




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector
  General, DoD, Home Page at: www.dodig.osd.mil.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
APU                     Auxiliary Power Unit
BCA                     Business Case Analysis
CRR                     Cost Recovery Rate
DLA                     Defense Logistics Agency
DVD                     Direct Vendor Delivery
IPV                     Industrial Prime Vendor
IR&D                    Independent Research and Development
ISO                     International Standards Organization
LECP                    Logistics Engineering Change Proposal
MFHBUR                  Mean Flight Hours Between Unscheduled Removals
NADEP-CP                Naval Aviation Depot - Cherry Point
NAVAIR                  Naval Air Systems Command
NAVICP                  Naval Inventory Control Point
NAVSUP                  Naval Supply Systems Command
PwC                     PricewaterhouseCoopers
NIIN                    National Item Identification Number
TLS                     Total Logistics Support
                        Office of the Inspector General, DoD
Report No. D-2000-180180                                                      August 8, 2000
   (Project No. D2000CF-0061)




              Commercial Contract for Total Logistics Support
                   of Aircraft Auxiliary Power Units

                                Executive Summary

Introduction. This report is one in a series involving innovative purchasing strategies
for commercial and noncommercial spare parts. This report addresses the repair and
logistics support of auxiliary power units used on Navy C-2, F/A-18, P-3, and
S-3 aircraft and other associated reparable items. The Naval Inventory Control Point -
Philadelphia, is responsible for overall management of the auxiliary power units
(reparable items). The Navy awarded Honeywell a 10-year, firm-fixed price contract
valued at $189 million that would provide total logistics support for the auxiliary power
units. The contractor is paid a fixed rate for each aircraft flight hour (also called a
power-by-the-hour type contract). The Navy’s primary objective in awarding the
performance-based, requirements contract was to reduce the cost of managing and
distributing reparable components to worldwide Navy operations and maintenance
organizations while increasing system reliability, maintainability, and related spare
parts availability. The objective would be accomplished by shifting the responsibility
from the Government to the private sector. This shift of total logistics support is
designed with the intent of reducing the manpower, infrastructure, facilities, tooling,
and inventory the Government employs to maintain the equipment. The auxiliary
power units represent 76 reparable parts that are repaired by the Naval Aviation Depot,
Cherry Point with a small number of parts repaired on individual contracts with
Honeywell. The Defense Logistics Agency procures and manages over 90 percent of
the more than 1,503 consumable items used to repair the auxiliary power units. Under
the total logistics support contract, Honeywell would act as the prime contractor,
procure and manage all consumable items, and subcontract the repair effort to the
Naval Aviation Depot, Cherry Point on a cost-reimbursable basis.

Audit Objectives. The primary audit objective was to determine whether the cost
savings, availability, and reliability data used in the business case analysis prepared by
the Navy supported the decision to award a commercial contract to Honeywell for total
logistics support of aircraft auxiliary power units. The audit also reviewed the cost
savings and benefits from reduced maintenance times, longer mean time between
failures, and the impact from technology refreshment.

Audit Results. The cost savings, availability, and reliability information used in the
business case analysis was based on questionable data and judgments and, therefore, did
not support the decision to award the total logistics support contract to Honeywell.
Also, the impact of transferring management responsibility for procurement and
management of consumable items for selective prime customers from the Defense
Logistics Agency to the total logistics support contract was not considered in the
business case analysis. Further, the impact of the total logistics support contract on
other ongoing Defense Logistics Agency initiatives such as the industrial prime vendor
program, or the Honeywell rapid improvement team, were also not factors in the
business case analysis. During detailed discussions after the draft report was issued,
the Navy identified “other quantitative benefits” of the contract valued at $34.8 million.
Considering these other benefits, we recalculated that the total logistics support contract
could cost the Navy an additional $357,555 to $7,223,475 rather than saving $13.98
million over the 10-year contract period. The additional cost is substantially lower than
the $31 million disclosed in the draft report. However, the cost still represents a loss
on the contract instead of the $13.98 million savings claimed in the business case
analysis. The Navy awarded the contract on June 8, 2000. For details of the audit
results, see the Finding section of the report.

Summary of Recommendations. We recommend that the Commander, Naval Supply
Systems Command issue guidance that directs the use of updated cost data in all
business case analyses. We also recommend that the Commander include cost savings
associated with depot washout and carcass loss cost recovery rates only when the actual
costs can be quantified for those items on the direct vendor delivery contract. We
recommend that the Commander, Naval Inventory Control Point - Philadelphia not
award the total logistics support contract until a business case analysis is prepared using
sound reasoning and reliable data. The analysis must address impact on cost recovery
rates, consider alternatives for the P-3 logistics engineering change proposal, and the
drawdown for consumable items inventory managed by the Defense Logistics Agency.
A total logistics support contract should also prohibit Honeywell from receiving
reimbursement on future Government contracts for any Independent Research and
Development costs associated with technology insertion on the auxiliary power units.
We also recommend that, before contract award, the Director, Defense Logistics
Agency determine the impact of changing consumable item support for selective prime
customers from the Defense Logistics Agency to the contractor and report on the effect.

Management Comments. The Navy agreed to use the most current pricing data
available but stated constructing a “should cost” repair price would be labor intensive
and speculative since the “should cost” repair price may not match charges eventually
billed by the repair facility. The Navy agreed that using actual cost data was more
precise and that it was analyzing alternatives for capturing the true impact of depot
washout and carcass loss factors. The Navy manually calculated rates and revised the
business case analysis to show an overall benefit to the Navy of $32.6 million and
awarded the contract. The Navy agreed to use appropriate cost recovery rates and
identify any additional surcharges applicable to the total logistics support contract. The
Navy agreed not to fund the procurement of any additional P-3 (95-2) turbine wheels.
The Navy did not agree with recommendations relating to the logistics engineering
change proposal for the P-3 aircraft, but stated that the engineering change was
rendered moot with award of the total logistics support contract. The Navy incorporated
an inventory drawdown provision in the total logistics support contract. The Navy
stated Honeywell would place just-in-time delivery orders at a rate well within its
production capacity to demand. The Navy agreed to use a consistent methodology to
                                             ii
calculate reliability for the auxiliary power units and included the methodology within
the terms and conditions of the total logistics support contract. The Navy also inserted
a clause into the contract directing Honeywell to exclude any costs associated with
technology insertion related to the total logistics support contract from its independent
research and development cost pools.

The Defense Logistics Agency commented that the overall impact to Agency’s
effectiveness, consumable item prices, and customer cost recovery rates for this one
contract was negligible. However, the cumulative effect of the Services’ future
initiatives for contractor logistics support could adversely impact the Defense Logistics
Agency if the agency is not included in the early planning and given the opportunity to
sell off consumable inventory and adjust future requirements accordingly.

Although not required to comment, the Deputy Under Secretary of Defense
(Acquisition Reform) commented that the Navy performed appropriate business case
analyses and should be encouraged to award and begin this novel initiative. The
Deputy Under Secretary commented that withholding of funds (relating to the
procurement of the P-3 (95-2) turbine wheels) was a contractual action taken to address
a deficiency in work performed by the contractor. The Deputy Under Secretary also
commented that Honeywell was required to allocate independent research and
development costs over a base representing the total activity of that business unit and
that independent research and development costs do not include costs of effort required
in performance of a contract. See the Finding for a complete discussion of management
comments and our response, and the Management Comments section for the complete
text of management comments.

Audit Response. The Navy comments were partially responsive. The Defense
Logistics Agency comments were fully responsive. Although the Navy agreed to use
current repair prices to support business case analysis decisions, the repair prices that
the Navy continues to use are based on actual cost data that are 3 to 4 years old. We
feel these data are not adequate or are at best, high risk to support real-world business
decisions. At a minimum, the Navy needs to verify that component repair prices for
the major cost drivers are in-line with actual costs to repair the items. While we did
not agree with the Navy’s calculation of benefits relating to the total logistics support
contract, the upper and lower bounds of risk associated with execution of the contract
were identified. During the June 2, 2000 meeting, the Navy acknowledged that there
was risk associated with the total logistics support contract. The Navy stated that even
if the risk was at the upper bound, meaning that the contract would cost more than the
current method of support, the risk was acceptable. We will work closely with the
Navy to evaluate the fruition of the benefits of the total logistics support contract to
include the “other quantitative benefits.” We request that the Navy provide additional
comments on Recommendation 1.a. by October 10, 2000.

We fail to understand why Acquisition Reform took exception to recommendations for
which the Navy agreed to take appropriate action. While we always appreciate
receiving comments on draft reports from the Under Secretary of Defense for
Acquisition, Technology, and Logistics, these comments merely illustrate that
Acquisition Reform has been out of the loop and has chosen not be a prime player in
this important matter.

                                            iii
Table of Contents

Executive Summary                                                           i


Introduction
     Background                                                             1
     Objectives                                                             2

Finding
     Total Logistics Support Contract for Aircraft Auxiliary Power Units    3

Appendixes
     A. Audit Process
           Scope and Methodology                                           26
     B. Prior Coverage                                                     28
     C. Demands and Prices for Reparable Items on TLS Contract             30
     D. Business Case Analysis and Actual Cost Comparison                  35
     E. Report Distribution                                                39



Management Comments
     Department of the Navy                                                41
     Defense Logistics Agency                                              47
     Deputy Under Secretary of Defense (Acquisition Reform)                50
Background
    Spare Part Audits. This report is one in a series of reports involving
    innovative purchasing strategies for commercial and noncommercial spare parts.
    This report addresses a total logistics support (TLS) contract for the repair and
    logistics support of auxiliary power units (APUs) used on C-2, F/A-18, P-3, and
    S-3 aircraft and other subordinate components. The APUs are repaired by the
    Naval Aviation Depot, Cherry Point (NADEP-CP). Honeywell was also
    awarded separate contracts to repair a small number of parts. The Defense
    Logistics Agency (DLA) supplies the consumable items needed to repair the
    items. Honeywell will assume responsibility for supplying consumable items to
    NADEP-CP under the TLS contract, while DLA will continue to manage the
    consumable items for other DoD customers. In an effort to reduce weapon
    system costs and associated inventory investment while maintaining fleet
    readiness, the Naval Inventory Control Point - Philadelphia (NAVICP)
    evaluated options to reduce the costs associated with maintenance and logistical
    support for reparable items. NAVICP procures and manages maintenance and
    logistical support of reparable aviation parts, including the APUs. NAVICP
    evaluated the direct vendor delivery (DVD) concept, where the main objective
    was to reduce costs by increasing the systems' reliability, maintainability, and
    related spare parts availability as a result of shifting the responsibility from the
    Government to the private sector. This shift of total logistics support, in turn,
    was designed with the intent of reducing the manpower, infrastructure,
    facilities, tooling, and inventory the Government maintained to support the
    equipment. NAVICP identified the APUs on the C-2, F/A-18, P-3, and S-3
    aircraft as potential DVD candidates and prepared a business case analysis
    (BCA) that evaluated the feasibility of awarding a DVD/TLS contract to
    Honeywell (formerly Allied Signal Aerospace). In June 1999, Honeywell and
    Allied Signal Aerospace merged, naming the combined company Honeywell.

    Related Initiatives. Several DoD initiatives are in-process relating to goods
    and services provided by Honeywell (often the initiatives overlap). In August
    1998, the Defense Industrial Supply Center, Philadelphia, Pennsylvania,
    awarded an “Industrial Prime Vendor” (IPV) contract to Raytheon E-Systems
    Incorporated to support the NADEP-CP. The goal of the contract was to
    provide a virtual depot that reduced cycle times and inventories by replacing
    inventory with information to reduce response times. Almost 18 percent (267 of
    1,503) of the various consumable items used to repair the APUs were already
    included on the IPV contract.

    In June 1999, the Director, DLA and the Deputy Under Secretary of Defense
    (Acquisition Reform) chartered a Rapid Improvement Team for the development
    of a new DLA/Honeywell strategic alliance relationship to improve customer
    support and responsiveness. DLA intends to pursue agency-wide terms and
    conditions, and corporate contracts with Honeywell that will result in reductions
    in the cost of consumable items, decreased response times, and more accurate
    forecasting, combined with more efficient administration. In response to a
    request from the Office of the Under Secretary of Defense for Acquisition,
    Technology, and Logistics, the Office of the Inspector General, DoD,

                                         1
     performed a review and provided analysis regarding the sole-source Honeywell
     consumable items under consideration for the DLA corporate contracts. The
     review included a site visit to the NADEP-CP, where the audit team learned of
     the pending NAVICP contract with Honeywell for total logistics support for the
     APUs. About a third (11 items) of the consumable items included on the initial
     DLA “catalog” demand contract with Honeywell would also be included on the
     NAVICP TLS contract. The intent of the corporate contracts is to eventually
     include all of the sole-source Honeywell consumable items.

     In October 1999, the Commander, Air Force Materiel Command, and the
     Deputy Under Secretary of Defense (Acquisition Reform) also chartered a Rapid
     Improvement Team for the development and deployment of a strategic supplier
     alliance with Honeywell. The strategic supplier alliance would result in a
     corporate contract with Honeywell for repair and spare items (reparable items).

     Improvements at NADEP-CP. NADEP-CP has recently implemented the
     International Standards Organization (ISO) 9000 to improve quality system
     standards. The ISO 9000 family of standards represents an international
     consensus on good management practices. The Federal Times, December 6,
     1999, reported that inefficient operations were causing the Naval Engine Airfoil
     Center, NADEP-CP to lose money, making it a target for closure, prior to
     implementing ISO 9000. The Airfoil Center, under the first of a three phase
     implementation plan, began working toward ISO 9000 standards in August 1996
     and became certified in March 1997. The Airfoil Center quadrupled the number
     of parts processed and doubled total sales in the first 3 years. Profits averaged
     from $3.9 million to $5.5 million over the 3-year period, compared to a loss of
     $1.7 million in 1995, before ISO 9000. Prices decreased annually by up to
     10 percent. The Airfoil Center also reported a 50 percent decrease in turn-
     around-time over the same period. The entire depot became ISO 9000 certified
     on November 19, 1999. Accordingly, NADEP-CP will be much more effective
     and efficient in the future.

Objectives
     The primary audit objective was to determine whether the cost savings,
     availability, and reliability data used in the business case analysis prepared by
     the Navy supported the decision to award a commercial contract to Honeywell
     for total logistics support of aircraft auxiliary power units. The audit also
     reviewed the cost savings and benefits from reduced maintenance times, longer
     mean time between failures, and the impact from technology refreshment. See
     Appendix A for a discussion of the audit scope, and methodology, and
     Appendix B for prior audit coverage related to the audit objectives.




                                          2
           Total Logistics Support Contract for
           Aircraft Auxiliary Power Units
           The Naval Inventory Control Point, Philadelphia, (NAVICP) based its
           decision to award a contract for total logistics support (TLS) of C-2,
           F/A-18, P-3, and S-3 aircraft auxiliary power units (APUs) on a business
           case analysis (BCA) that used questionable data and judgments. This
           decision occurred because the BCA methodology used to support the
           contract award:

                  •   used approved Navy component repair prices that were based
                      on outdated cost data and included depot demands for items
                      that were not appropriate,

                  •   credited savings associated with NAVICP cost recovery rates
                      for depot washout and carcass loss that were not justified,

                  •   failed to consider alternatives for the P-3 logistics engineering
                      change proposal (LECP) that provided more effective and less
                      costly results and failed to fully account for P-3 retrofits in
                      the BCA, and

                  •   did not adequately consider the impact of transferring the
                      responsibility for procurement and management of
                      consumable items from DLA for selective prime customers to
                      the TLS contractor.

           In addition, other proposed TLS contract benefits related to improved
           parts availability and improved APU reliability remain questionable and
           award of the contract would adversely impact the effectiveness of DLA
           to manage consumable items. During detailed discussions after the draft
           report was issued, NAVICP identified "other quantitative benefits" of the
           TLS contract totaling $34.8 million. Considering these other benefits,
           we recalculated that the TLS contract could cost the Navy an additional
           $357,555 to $7,223,475 rather than saving $13.98 million over the
           10-year contract period. These additional costs are substantially lower
           than the $31 million disclosed in the draft report. However the costs still
           represent a loss on the contract instead of the $13.98 million savings
           claimed in the business case analysis. The Navy awarded the contract on
           June 8, 2000.

Different Methodologies for Business Case Analysis
     Business Case Analysis. NAVICP requested that the Navy Price Fighters
     prepare the BCA. The Navy Price Fighters report to the Naval Supply Systems
     Command (NAVSUP). Navy Price Fighters then contracted out the effort to a
     private contractor. The BCA was prepared to determine whether it was
     economically feasible (objective being break even costs or better with other
                                        3
benefits) for the NAVICP to enter into a multiple year DVD/TLS contract with
Honeywell. The analysis compared the Navy cost of ownership without the
DVD contract to a proposal from Honeywell that also improves reliability and
availability. The theory was that NAVICP will award Honeywell, as the prime
contractor, a firm-fixed price contract per flight hour by aircraft platform.
Honeywell will, in turn, subcontract the repair work to the NADEP-CP under a
cost-reimbursement contract. In essence, Honeywell instead of the DLA
becomes the material manager for the consumable items used by the NADEP-
CP to repair the APUs.

       Original BCA. The original BCA, dated August 24, 1998, used a
5-year average of historical repair costs to compute the Navy cost baseline. The
analysis concluded that the contractor proposed price exceeded the Navy cost
over a 10-year period by $54.9 million. In addition, the original contractor
proposal did not specify that Honeywell would increase APU reliability or
provide consumable items at the depot level.

        Approved BCA. The approved BCA, dated September 3, 1999,
incorporated a newly established required format for Navy BCAs. In addition,
based on verbal guidance from NAVICP, the contractor performing the analysis
used 1 year of cost data, FY 1998 demands and FY 1999 repair prices, rather
than a 5-year historical cost average to develop the baseline cost. Appendix C
provides a list of all APU items with BCA demands and repair prices. The
BCA summarized costs associated with the Navy Working Capital Fund into
two major categories, material and operations costs. Material costs (cost of
goods sold) included fully burdened repair costs and material maintenance costs
such as, depot washout, carcass loss, and obsolescence. Operations costs
included NAVICP-related costs, storage, and transportation.

       Table 1 summarizes the BCA conclusion that the Navy would save
$13.98 million by awarding the DVD contract to Honeywell.


                   Table 1. BCA Cost Comparison of DVD
                         and Non-DVD Alternatives
             Without DVD                                 Amount
                Material costs                          $196,156,100
                Operation costs                           34,017,000

                Total                                   $230,173,100

             With DVD
                Material costs                          $189,084,100
                Operation costs                           27,105,800

                Total                                   $216,189,900
             With DVD Cost Savings                       $13,983,200


                                     4
            PricewaterhouseCoopers Validation of BCA. In February 2000,
    NAVICP contracted with PricewaterhouseCoopers (PwC) to review the
    approved BCA to determine the reasonableness of the cost data and
    assumptions, and to evaluate its validity as a useful tool for making critical
    decisions. NAVICP also contracted with PwC to evaluate the BCA
    methodology after we questioned the accuracy of the BCA. After a 2-week
    review, PwC concluded that the BCA was a fair and reasonable tool for
    evaluating the proposed contract. The PwC review determined that critical
    areas of the BCA were both over and under stated, with a net savings reduction
    of $1.8 million. Specifically, PwC determined that 1 year of cost data was
    insufficient to calculate the cost of goods sold and recommended that future
    BCAs use at least 3 years of historical cost data. PwC also concluded that the
    use of aggregate depot washout and carcass loss cost recovery rates was
    appropriate for the BCA and recommended the use of a 5-year historical average
    for each rate. We disagree with the results and conclusions reached by PwC in
    regard to cost of goods sold, carcass loss, and depot washout and our discussion
    is detailed in the following paragraph.

Questioned BCA Costs and Adjustments
    Summary of Analysis. Our analysis of the BCA line item costs did not support
    the conclusion that the Navy would save $13.98 million if NAVICP awarded the
    DVD/TLS contract to Honeywell. We question the Navy's cost methodology
    on both alternatives, with and without the DVD contract, and determined that
    rather than offering savings to the Navy, the DVD contract would cost the Navy
    at least an additional $31 million. During detailed discussions after the draft
    report was issued, NAVICP identified “other quantitative benefits” of the TLS
    contract totaling $34.8 million. When these other benefits were included in our
    analysis, we calculated that the TLS contract could cost the Navy an additional
    $357,555 to $7,223,475 rather than saving $13.98 million over the 10-year
    contract period. The Navy recognized the “upper and lower bounds of risk
    associated with execution of the contract” and subsequently awarded the
    contract on June 8, 2000.




                                       5
 Tables 2 and 3 show our adjustments to both the with and without DVD cost
 alternatives and the impact of those adjustments on the DVD contract.

                Table 2. Questionable BCA Costs and Adjustments

                     Description                                        June 8, 2000 changes
                                                                        $113.54        $90.97
          Adjustment to without DVD Costs              Draft Report    labor rate    labor rate

Repair cost prices*                                     $8,962,714 $12,878,499 $19,744,419
Depot demand for P-3 items                               4,522,221   4,522,221   4,522,221
Depot washout (14.44 percent)                           23,302,342 23,302,342 23,302,342
Carcass loss (5.2 percent)                               8,391,425   8,391,425   8,391,425
P-3 APU LECP material                                    1,845,936   1,845,936   1,845,936
P-3 APU LECP methodology                                 6,924,778   6,924,778   6,924,778

  Total                                                $53,949,416 $57,865,201 $64,731,121

            Adjustment to with DVD cost                Draft Report     June 8, 2000 changes

Costs for P-3 APU (-2) retrofit kits                    $3,906,278
DLA material inventory costs                             4,818,168

            "Other Quantitative Benefits"

 Depot washout/carcass loss                                                     $4,100,000
 Transportation                                                                  3,000,000
 Engineering and support (Honeywell representatives)                             5,600,000
 Organization and intermediate level consumables                                 2,100,000
 Technology insertion recoupment                                                 3,000,000
 Technical publications avoidance                                                1,500,000
 Reallocation of staffing
  Fleet manhours                                                                10,200,000
  NAVAIR technical representatives                                               5,300,000
   Subtotal                                                $8,725,446          $34,800,000
     Total                                                                     $43,524,446
*Repair cost prices in the draft report were based on the low difference in Appendix D. The
June 8, 2000 changes were based on midpoint figures between the low and high differences.




                                            6
             Table 3. Additional Costs for Total Logistics Support Contract
                                                               June 8, 2000 changes
                 Description                                  $113.54           $90.97
                                         Draft Report        labor rate       labor rate
    Without DVD total costs              $230,173,100       $230,173,100    $230,173,100
     (approved BCA costs)
    Adjustments to without DVD               (53,949,416)    (57,865,201)    (64,731,121)

     Total                                $176,223,684      $172,307,899    $165,441,979


    With DVD total costs                  $216,189,900      $216,189,900    $216,189,900
     (approved BCA costs)
    Adjustments to with DVD                   (8,724,446)    (43,524,446)    (43,524,446)

     Total                                $207,465,454      $172,665,454    $172,665,454

    Additional Costs for DVD contract        $31,241,770       $357,555       $7,223,475


Repair Prices and Depot Demand for TLS Items
    Repair Prices. The NADEP-CP FY 1999 repair prices used in the BCA were
    based on outdated production cost data from FYs 1995 and 1996. Repair prices
    are developed by the Naval Air Systems Command using prices calculated by
    the NADEP-CP. The prices are calculated (for budget purposes) for 2 years
    beyond the current year using actual repair costs 2 years prior to the current
    year. As a result, repair prices charged to customers are based on actual costs
    that are 3 to 4 years old. NADEP-CP equipment specialists agreed that prices
    did not represent actual costs, but stated they had to work within the system.
    NADEP-CP reasoned that while they profited some years because prices
    charged were higher than actual costs, in other years, prices were lower than
    actual costs. As a result, NADEP-CP concluded, that the highs and lows
    balanced out over a period of time. The method that the Navy uses to develop
    repair prices may be adequate for recovering costs when repairs are
    accomplished in-house (within the Navy), therefore, we agree that the highs and
    lows would likely balance out over several years. However, using repair prices
    based on outdated cost data to make long-term decisions on whether or not to
    contract out the repairs is not acceptable; because if the contract prices are based
    on repair prices that were too high, the contractor now profits, and prices will
    never balance out.

           Updated Repair Costs. Component repair costs (based on cost data
    from the Fleet Equipment Production Reports for FY 1998 through first quarter
    of FY 2000) were $9 to $30.5 (midpoint $19.74) million or 6.8 to 23.2 percent
    lower than the FY 1999 prices used in the BCA. The FY 2000 NADEP-CP

                                         7
composite labor rate of $90.97 was used to calculate labor costs (Appendix D).
The low calculation ($9 million) for each component was based on all recorded
labor and material costs divided by the number of items ready for issue for each
component. By contrast, the high calculation ($30.5 million) used all labor and
material costs divided by the number of items ready for issue plus in-process
items and items awaiting parts. Consequently, the low calculation accounts for
additional costs related to items that were not yet ready for issue. The high
calculation accounts for all the items not ready for issue but not all the
additional costs related to the unfinished repairs.

        After the draft report was issued, NAVICP obtained a new $109.22
FY 2000 labor rate from NADEP-CP related directly to the APUs. We
contacted the NADEP-CP comptroller and were informed that the FY 2000
labor rate for the highest priced cost center (cost center 944) working on APUs
was $113.54. When the $113.54 labor rate was used, component repair costs
were $1.36 to $24.40 (mid-point $12.88) million lower than the FY 1999 prices
used in the BCA. We used the midpoints based on the composite labor rate of
$90.97 and the cost center 944 labor rate of $113.54 as the range for our
calculations in Tables 2 and 3.

         The lower repair costs may have resulted, in part, from NADEP-CP's
recent implementation of ISO 9000 quality system standards. NAVICP and
PwC credited Honeywell with implementation of ISO 9000 under the terms of
the TLS contract; however, NADEP-CP had been working under ISO 9000
standards since August 1996. The NADEP-CP Production Department, where
the majority of the APU repairs are performed, began implementation under
Phase II in February 1998 and was certified ISO 9000 compliant in November
1999. The FY 1999 NADEP-CP APU repair prices (based on FYs 1995 and
1996 actual costs) would not have begun to reflect the benefits of ISO 9000. It
is likely that APU repair costs will continue to decrease as the improvements
and benefits of ISO 9000 implementation are realized in the Production
Department and throughout the depot, given the significant improvements that
resulted from Phase I implementation. Accordingly, awarding a firm-fixed
price contract to Honeywell for TLS while Honeywell enters into a cost-
reimbursable contract with NADEP-CP is a questionable decision.

        Repair Price Fluctuations. The PwC study showed that the repair costs
in the without DVD portion of the BCA were understated by $6.6 million. The
study used a 3-year average approach to calculate repair prices based on data
from FYs 1998 through 2000 (which was based on actual repair cost data from
FYs 1994 through 1997). The study states, "There should not be concern over
the 4-year time span between the review of actual costs resulting in a fiscal year
effective repair price, as repair price history over time does not show significant
fluctuations." We disagree with the PwC conclusion and point out two of the
highest value components with significant fluctuations in repair prices and
differences between the most recent repair costs.




                                     8
        Figures 1 and 2 show the extreme price fluctuations of two critical parts
for the F/A-18 and the P-3 APUs, respectively.
                     $120,000
                                    $100,379
                     $100,000

                      $80,000
      Repair Price




                                                                  $59,939
                      $60,000

                                                    $35,221                    $35,802
                      $40,000                                                               $28,130

                      $20,000

                             $0
                                      FY 98          FY 99        FY 00         High          Low
                                  (94/95 data)    (95/96 data) (96/97 data)       (FY 98/99 data)

                                                                  Year
                                                   NADEP Cherry Point Component Repair Prices
                                                   Component Repair Price Calculation (Range)


                     Figure 1. Comparison of Repair Costs for F/A-18 APU (NIIN 013478038)

                $80,000
                                                  $72,134
                $70,000

                $60,000
                                  $49,280
                $50,000                                         $43,840
Repair Price




                $40,000                                                       $37,216
                                                                                           $35,498
                $30,000

                $20,000

                $10,000

                        $0
                                   FY 98          FY 99         FY 00          High          Low
                              (94/95 data)       (95/96 data) (96/97 data)       (FY 98/00 data)
                                                                Year

                                                 NADEP Cherry Point Component Repair Prices
                                                 Component Repair Price Calculation (Range)

                 Figure 2. Comparison of Repair Costs for P-3 APU (NIIN 010732509)
                                                                 9
    NAVSUP should issue guidance requiring the use of the most recent cost data in
    all BCAs, at a minimum, for those items that represent key cost drivers.

           Depot Demand for P-3 Items. Three of the P-3 reparable components
    included in the BCA without DVD costs were considered in the cost of the P-3
    APUs. In essence, the costs for these items were counted twice in the without
    DVD costs. The components could be replaced only when repairs were
    performed at the depot and demands for the items represented depot demands.
    The depot would include the costs for these items in its material cost for the P-3
    APUs. The separate costs for the turbine wheel and shaft assembly (NIIN
    001463227), housing assembly (NIIN 001705126), and torus assembly (NIIN
    009082497) components, totaling $4,522,221 were removed from the without
    DVD costs in our adjustments to the BCA.

Cost Recovery Rates
    BCA Savings Related to Depot Washout and Carcass Loss. The BCA
    "without DVD" option included approximately $23.3 million for depot washout
    and $8.3 million for carcass loss to recover costs that were not justified.
    NAVICP recovers depot washout, carcass loss and other indirect costs by
    applying cost recovery rates (CRR) to the NADEP-CP item repair cost.
    NAVSUP, the organization responsible for developing the CRRs for Navy
    Working Capital Fund management, calculates the rates based on the aggregate
    depot washout and carcass loss cost that the inventory control point needs to
    recover for all reparable items that it manages. NAVSUP calculated a recovery
    rate of 14.44 percent for depot washout and 5.2 percent for carcass loss for
    NAVICP to recover costs for items that were beyond repair or lost in the supply
    system while in transit, respectively. New items are procured through the use
    of funds recovered for depot washout and carcass loss.

    The PwC study calculated an 8.73 percent for depot washout and 4.64 percent
    for carcass loss using a 5-year average. The study concluded that the BCA was
    overstated by $14.1 and $7.5 million, respectively. We question the PwC
    methodology for including costs for depot washout when item managers for all
    four aircraft told them that the APU carcasses experienced zero attrition.
    Furthermore, we disagree with the PwC conclusion to use a 5-year average
    because the issue is not about the appropriate percentage for the BCA. These
    costs are not applicable because NAVICP did not procure any new parts for
    these items during FYs 1997 through the first quarter of FY 2000. In addition,
    costs for depot washout and carcass loss are already accounted for in APU
    material costs. For example, when the depot is repairing an APU, if a
    component is not repairable because of depot washout or carcass loss, the depot
    requisitions another component and the material cost is included in the APU
    repair cost. Further, since the contract has been awarded, the other reparable
    items not on the TLS contract will be charged with a higher cost recovery rate
    for depot washout and carcass loss to recover the necessary costs.




                                        10
Table 4 shows the amounts for depot washout and carcass loss over a 10-year
period for the four aircraft.

     Table 4. Recovery Amounts for Depot Washout and Carcass Loss
                           (10-year period)

              Depot Washout                Carcass Loss                   Total
  C-2           $1,304,157                   $469,641                 $1,773,798
  F/A-18         7,151,354                  2,575,280                  9,726,634
  P-3            7,249,343                  2,610,567                  9,859,910
  S-3            7,597,487                  2,735,937                 10,333,424
   Total       $23,302,341                 $8,391,425                 $31,693,766


The Commander, Naval Supply Systems Command, issued “Revised FY 00
Variable Pricing Guidance,” March 11, 1998, to establish necessary variable
pricing guidance for FY 00 execution to ensure full cost recovery.
                  Each DVD BCA package forwarded to NAVSUP for
                  consideration shall include a copy of the associated contract
                  and applicable Budget Project DVD sale base impact. SUP 01
                  will review all approved DVDs and assign a Cost Recovery
                  Rate (CRR) by function. A cash neutral result is to be
                  achieved in FY 00 by burdening non-DVD material prices, as
                  required, to offset the loss of revenue associated with the
                  reduced prices of DVD material. The preferential treatment
                  given to DVD customers is expected to be short lived since
                  long term reliance on DVD is anticipated. This will enable
                  reductions in redundant areas of support, therefore, no longer
                  requiring this cost allocation methodology and result in
                  appropriate reductions in non-DVD prices as well.
The Commander, NAVSUP should direct that actual costs associated with depot
washout and carcass loss cost recovery rates be quantified before being counted
in BCA decisions for items placed on DVD contracts.

Commercial Item Burden. NAVICP applied a commercial burden to the item
repair cost when repairs were predominantly commercial. The burden
recovered costs related to government-furnished material, repair management,
and items missing on induction or beyond economic repair by weapon system
application. The FY 2000 prices included a commercial burden of 58.3 percent
on one item for the C-2 APU and 37.4 percent on six items for the S-3 APU.

Transportation. The BCA calculation included an estimated savings in
transportation costs of $5.8 million between the "without DVD and with DVD"

                                      11
options. The 4.75 percent transportation cost for without DVD will decrease to
2.38 percent under the total logistics support contract. While this is a savings to
NAVICP, we anticipate that the Navy will pass along this savings to its
customers in the form of a lower CRR.

Impact on Cost Recovery Rate if TLS Contract is Awarded. The CRR
applicable to the TLS contract will be reduced to 4.96 percent based on the
BCA. The NAVICP customers paid FY 2000 repair prices that included
additional surcharges averaging 30 percent to 80 percent of the NADEP-CP
item repair cost, depending on the platform.

Table 5 shows the specific cost recovery rates applied by platform.

                  Table 5. NAVICP Cost Recovery Rates
                               (percent)

                                      Without DVD                  With DVD
 Description                C-2      F/A-18    P-3        S-3

 Depot washout              14.44        14.44   14.44    14.44        0.00
 Cost recovery
  Carcass loss               5.20         5.20    5.20     5.20        0.00
  NAVICP operations          2.52         2.52    2.52     2.52        2.52
 Transportation              4.75         4.75    4.75     4.75        2.38
 Packaging                   1.70         1.70    1.70     1.70        0.00
 Inflation                   0.20         0.20    0.20     0.20        0.00
 LECP recovery1              3.30         0.00    2.29     3.30        0.00
 Commercial burden2         58.30         0.00    0.00    37.40        0.00

 Cost Recovery Rate3        30.90        30.38   33.12    79.97        4.96
 1
   Logistics Engineering Change Proposal (LECP) applied to all items across
 a particular weapon system.
 2
   Commercial burden applied only when repairs were predominantly
 commercial.
 3
   Represents a weighted average of all surcharges against total repair costs
 for each platform.


Transportation and NAVICP operations costs are the only applicable recovery
rates acceptable under the TLS contract and need to relate to applicable cost
savings identified in the BCA. The other recovery rates should no longer apply
because, under the contract, Honeywell would bear the related costs.
NAVSUP, in conjunction with NAVICP, needs to determine whether applying a
cost recovery rate of about 4.96 percent to the TLS contract is sufficient to
recover applicable costs without raising the recovery rates for items not on the
                                    12
     TLS contract. NAVICP also needs to identify any additional recovery rates
     applicable to the TLS contract. These costs should be included in a revised
     BCA.

Logistics Engineering Change Proposal for P-3 Auxiliary
  Power Units
     P-3 APU Logistics Engineering Cost Proposal (LECP). NAVICP failed to
     consider alternatives for the P-3 LECP that provided more effective and less
     costly results and used the less effective P-3 LECP to support the BCA for the
     TLS contract. Further, the retrofit schedule used in the LECP is not attainable
     based on the modified contract delivery schedule. Also, the failure rates of the
     95-3 APUs (items being repaired at the depot) do not coincide with the delivery
     schedule for the retrofit kits.

     The P-3 LECP is designed to upgrade the 95-2 and 95-3 model APUs to the
     95-10 model at a cost of about $8 million to the Navy. The upgrade includes
     retrofitting all 175 of the 95-3 APUs and 35 of the 95-2 APUs. Seventy-
     one 95-2 APUs are to be retrofit by Honeywell under the TLS contract. We
     estimated that it will cost Honeywell $3.9 million (71 x $55,018) to retrofit the
     remaining 95-2 model APUs and applied that amount as a cost savings to
     NAVICP on the "with DVD" option. During the audit, NAVICP indicated that
     a $673,000 contract was expected to be awarded to Honeywell for 50 turbine
     wheels (used only on 95-2 APUs). However, new turbine wheels (different part
     for 95-10 APUs) are included in the 95-2 retrofit kits. NAVICP should not
     provide any funds to Honeywell to procure 95-2 turbine wheels and should not
     provide any additional funds to Honeywell outside the TLS contract.

     P-3 LECP APU Methodology. The P-3 LECP is based on upgrading 175 95-3
     and 35 95-2 P-3 APUs to a 95-10 configuration. Seventy-one of the 95-2 APUs
     were not funded for upgrade. The unit upgrade costs were $32,000 for the
     95-3 and $55,018 for the 95-2 APUs. The LECP used the same mean time
     between depot actions and repair costs for both the models. Unfortunately, no
     good method exists to calculate the difference in the mean time between depot
     actions because the 95-2 meter counts hours while the 95-3 meter counts starts.
     However, from FY 1998 through the first quarter of FY 1999, NADEP-CP
     repaired and issued almost three times as many 95-2 as 95-3 APUs (179 versus
     62). In addition, the costs to repair the 95-2 APUs were significantly higher
     than the costs to repair the 95-3 APUs, $57,111 versus $37,216. We calculated
     that the Navy can save between $6.9 and $9.5 million over a 10-year period if
     100 of the 95-2 APUs planned for future use are upgraded and the remaining
     funds are used to upgrade 95-3 APUs. Our $6.9 million calculation was based
     on 101 of the 272 P-3 aircraft in service having 95-3 APUs and our $9.5 million
     calculation was based on 128 of the 272 aircraft in service having 95-3 APUs.
     NAVICP needs to take the necessary action to modify the P-3 LECP contract to
     obtain additional 95-2 versus 95-3 APUs.

     Retrofit Schedule. The delivery schedule for the 95-2 and 95-3 retrofit kits has
     slipped almost a year. The original schedule required delivery of the 95-2
                                        13
    retrofit kits at six per month starting in May 2000 with delivery of the 95-3
    retrofit kits at three per month starting in June 2000. The last of the 95-3
    retrofit kits was scheduled for delivery in March 2005. Further, at about
    31 depot repairs per year for the 95-3 APU, it would take over 5.6 years to
    retrofit 175 units, so, attempting to accelerate the delivery schedule is of no
    value. However, the P-3 LECP is based on the last 40 95-3 retrofits being
    completed in 2002, which is not possible. NAVICP requested that NADEP-CP
    stockpile (for the LECP retrofit) 95-3 APUs sent back for depot repair and only
    repair the 95-2 APUs. It costs NADEP-CP significantly more to repair 95-2
    versus 95-3 APUs and the reliability of the 95-2 APU is less. NAVICP must
    rewrite and resubmit the P-3 LECP to consider retrofitting 100 of the 95-2
    APUs, use appropriate depot repair prices for the 95-2 and 95-3 APUs, and
    base the retrofit schedule on availability of APUs and the delivery schedule of
    the retrofit kits. In addition, NAVICP also must notify NADEP-CP to stop
    stockpiling 95-3 APUs.

    P-3 LECP APU Material. The P-3 LECP included $7,525,630 of material in
    the retrofit kits to replace or modify material in the APUs, and the "without
    DVD" costs in the BCA gave no consideration for the use of this material. The
    retrofit kits are scheduled to be installed at the NADEP-CP as the APUs are
    repaired. We compared the LECP material with the P-3 95-2 and 95-3 APU
    bills of material and identified $1,845,936 of material on the current bills of
    material being replaced under the LECP. We believe the $1,845,936 should be
    adjusted from the without DVD costs because those parts will be supplied as
    part of the LECP.

Responsibility for Consumable Items
    Consolidation of Inventory Control Points. On July 3, 1990, the Deputy
    Secretary of Defense approved the recommendation in Defense Management
    Report Decision 926, “Consolidation of Inventory Control Points,” to transfer
    item management responsibility for approximately one million consumable items
    from the Services to the DLA. The report concludes that transferring the
    consumable items to DLA was both cost effective and desirable, and would
    produce an estimated recurring annual savings of between $45 to $49 million
    (FY 1989 dollars) beginning in FY 1995.

    Item Manager for Consumable Items. We reviewed the bills of material for
    the four different APUs on the TLS contract and identified a total of
    1,503 different national item identification numbers (NIINs). A total of
    1,394 NIINs, or 92.8 percent were consumable items managed by DLA. DLA
    is implementing a number of new contracting and logistics support initiatives
    that are impacted by parts shifting from DLA management to contractor
    management under the TLS contract. Almost 18 percent (267 of 1,503) of the




                                       14
 items used to repair the APUs were already included on a DLA industrial prime
 vendor contract at NADEP-CP. About a third (11) of the items included on the
 DLA/Honeywell Rapid Improvement Team catalog contract were items included
 on the TLS contract.

 As of December 31, 1999, the DLA Standard Automated Material Management
 System shows an annual demand for the items of about $16.4 million and
 inventory valued at about $24.5 million (inventory equals on-hand plus due-in
 amounts less backorder amounts).

 Table 6 shows that DLA maintains significant inventory to support consumable
 items needed to repair aircraft APUs.

                Table 6. DLA Manages the Majority of the
              Consumable Items Used to Repair Aircraft APUs

                  APU Bill of         Parts on IPV
                   Materials            Contract         DLA (Dec 31, 1999)
             Number           Number                    Inventory   Annual
Item Manager of NIINs Percent of NIINs Percent            Value     Demand
DISC             555    36.9      213   14.17           $2,682,221 $1,792,347
DSCC             362    24.1        0      0             4,599,519 3,132,321
DSCR             477    31.7       54    3.59           17,185,840 11,507,925
NAVICP-P          89     5.9        0      0                 0          0
Other             20     1.3        0      0                 0          0

 Subtotal       1,394       92.8         267   17.76 $24,467,580 $16,432,593
  DLA
  Total         1,503       100          267   17.76


 Shift In Procurement and Management Responsibility for Prime Customers.
 NAVICP did not adequately consider the impact of transferring the
 responsibility for procurement and management of consumable items from DLA
 to the TLS contractor. The consumable items included on the four APU bills of
 material were requisitioned by almost 4,000 different DoD Activity Address
 Codes (DoDAACs); however, NADEP-CP, the prime DLA customer,
 requisitioned almost 34 percent of the items (dollar value). Other Navy
 customers representing the intermediate and organizational levels also
 requisitioned large quantities of parts. Honeywell also requisitioned items as
 Government furnished material on repair contracts, while much of the Air Force
 material may shift to the Air Force corporate contract with Honeywell.

 Serious questions must be addressed on the impact to the effectiveness of DLA
 in managing consumable items when its best customers (NADEP-CP) are given
 to contractors to support under these new contracting initiatives. Questions such
 as what happens to consumable item prices, and cost recovery rates when its
                                    15
base (value of items) is significantly reduced and its prime customers are given
to contractors for support. Also, who supports the thousands of other customers
that need the same parts but only in small quantities.

The DLA needs to determine the impact on effectiveness, consumable item
prices, and customer CRRs when changing consumable item support from the
DLA to contractor support for selective prime customers and report on the
impact.

Table 7 shows DLA customer requisitions in CY 1999.

     Table 7. DLA Customer Requisition Amounts for CY 1999
                       No. of
       Customer       DoDAACs         Amount        Percent

  NADEP-CP                       1           $4,818,168         33.6
  Other Navy                 1,000            2,090,556         14.6

  Kelly Air Force Base           1            1,880,988         13.1
  Other Air Force              267            1,629,830         11.4

  Foreign Military Sales       359            2,079,991         14.5

  Honeywell                      1              947,473          6.6
  Other Contractors            112              350,709          2.5

  Other Customers            2,248              523,337          3.7

   Total                     3,989          $14,321,052        100.0


Inventory Drawdown. If the TLS contract is to be awarded, NAVICP, DLA,
and Honeywell must immediately start coordinating the inventory drawdown
from the DLA. DLA must also stop procuring items to support the TLS
contract APUs. We credited (Table 2) the TLS contract with an inventory
reduction at DLA equal to the amount requisitioned by NADEP-CP during
CY 1999 ($4,818,168). DLA was maintaining inventory totaling over
$24.5 million related to consumable parts used to repair the APUs while the
TLS contract assumes Honeywell can improve parts availability while
maintaining inventory of only about $2 million. We provided both NAVICP
and DLA with electronic files of the DLA inventory used to create Table 6.
The TLS contract needs to address the complete inventory drawdown for
consumable items used by NADEP-CP from DLA.




                                     16
APU Availability
    The TLS contract proposes that Honeywell maintain 90 percent availability of
    the reparable items. Based on our review, the FY 1999 availability for the
    majority of the reparable items is 90 percent or better. Meanwhile, the PwC
    study also concluded that the current availability averages 87 percent for the
    four APUs. For those reparable items with low availability, there were five
    items with availability under 70 percent because of the G-condition problems.
    A G-condition problem exists when a repair is incomplete because the "material
    requires additional parts or components to complete the end item prior to issue."
    The part with the most serious G-condition problem that is affecting the
    availability of the five reparable items is NIIN 011148612, a rotor. Honeywell
    manufactures the additional part that has caused the delays in repairs of the five
    items. The Defense Supply Center Richmond stated that the part is unavailable
    because Honeywell's production schedule could not meet the demand. As of
    March 22, 2000, there is a backorder of 75 rotors. Furthermore, other reparable
    items with low availability that were also manufactured by Honeywell
    experienced G-condition problems because demands surged and parts had
    extended administrative and production lead times. The proposed TLS contract
    provides for payment adjustments to Honeywell if the contractor does not meet
    the 90 percent availability. The payment adjustments range from $20,000 to
    $500,000 (1/10th of a percent to 2.5 percent) of the annual contract value per
    year. NAVICP needs to request that Honeywell explain how its production
    schedule can be improved to meet TLS contract demands while they were not
    improved to meet DLA demands. Figure 3 shows the availability of 55
    reparable items for the S-3, C-2, P-3 and F/A-18 auxiliary power units. We did
    not include reparable items that did not have a demand in FY 99.

                             13




                                                              30
                       5


                             4
                                    3


                       100        90-99   80-89   50-79     0-49

            Figure 3. Auxiliary Power Unit Reparable Item Availability

                                          17
Reliability Improvement of APU
    Reliability Improvements from Technology Refreshment. NAVICP could
    not support the reliability improvement assumptions made in the BCA. The
    BCA relies on the assumption that Honeywell will guarantee improved
    reliability between 15 percent and 45 percent for the C-2, S-3, and F/A-18
    APUs through technology refreshment (i.e., engineering improvements) initiated
    and funded by Honeywell. We did not include the reliability improvement for
    the P-3 APU since any reliability improvements are covered under the LECP.
    NAVICP established a metric to measure the mean flight hours between
    unscheduled APU removals (MFHBUR) at the organizational level to determine
    this improved reliability. The MFHBUR is calculated by dividing the total
    flight hours for each aircraft platform by the number of unscheduled APU
    removals at the organizational level. NAVICP obtained reliability data from the
    Naval Aviation Logistics Data Analysis System at Naval Air Systems Command
    (NAVAIR) to establish a baseline for each aircraft platform using data from
    August 1997 through February 1999. The baseline was then compared to the
    proposed improvement to MFHBUR (as a result of Honeywell's investment in
    technical refreshment) to determine the increase in reliability of the APUs.

    To validate the baseline, we reviewed reliability data provided by NAVAIR
    from the recently implemented Logistics Management Decision Support System
    for calendar year 1999. The updated data (reliability summaries) showed that
    the MFHBUR for calendar year 1999 was significantly lower than the baseline
    cited in the BCA. Because of the significant difference, we requested additional
    data to show the supporting details of the reliability summaries. Once again, the
    detailed support differed significantly from the reliability summaries as
    previously provided for the same time frame. The MFHBUR from the detailed
    supporting data was significantly higher than the MFHBUR from the reliability
    summaries and was more in-line with the baseline used in the BCA.

    The proposed TLS contract provides for payment adjustments (reductions) to
    Honeywell if the contractor does not meet the guaranteed reliability
    improvements. The payment adjustments range from $25,000 to $75,000
    (1/10th to 4/10th of a percent) of the annual contract value per year by platform.
    However, given the difficulty NAVICP had providing support for the
    established baseline, we question its ability to accurately measure reliability
    increases/decreases for the APUs. Thus, the ability to determine whether
    Honeywell will meet its reliability improvements as guaranteed under the TLS
    contract is diminished by the inability to establish an accurate baseline. In
    addition, an "accurate" baseline will depend largely on the sensitivity of the data
    fields used in performing the system query and on the integrity of the
    information, as reported and entered into the system at the organizational level.

    Table 8 shows the guarantee in reliability improvements for the three aircraft
    under the TLS contract and the new baseline established for CY 1999. The CY
    1999 reliability data exceeds the baseline data in the TLS contract.



                                        18
      Table 8. CY 1999 APU Reliability Data Exceeds Contract Baseline

                           Contract         Contract                          CY 1999
            BCA           Reliability      Reliability                    Difference From
           Baseline      Improvement         Total         CY 1999         BCA Baseline
          (MFHBUR)         (Percent)       MFHBUR          MFHBUR             (Percent)
F/A-18       968               45             1400            999                   4
S-3          418               25              525            474                   12
C-2          464               15              535            575                   20




NAVICP must establish a consistent methodology to measure any reliability
increases/decreases for the APUs and base the TLS contract baseline on that
methodology.

Technology Insertion. DoD routinely pays for technology insertion through
independent research and development (IR&D). Public law encourages IR&D
by permitting contractors to claim a portion of their IR&D costs as part of
overhead in Government contracts. By reimbursing these costs, DoD
encourages the industry to explore new technologies with potential application to
military systems. IR&D projects are usually performed to improve existing
DoD products, meet dual use demands, or meet what the industry perceives to
be "potential" DoD requirements.

Honeywell reported IR&D costs for the improvement of the APUs since
FY 1993, based on the information obtained from the Defense Technical
Information Center database. The objectives and approaches as reported by
Honeywell state:
            The overall goal for this project is to continue to improve APU
            technology in order to provide for increased operational reliability.
            The overall approach is to increase APU performance, reliability,
            maintainability, durability, and adaptability by applying advanced
            technology to engine component and accessories development.

NAVICP needs to include clauses in the TLS contract that prohibit Honeywell
from including any costs associated with technology insertion related to the P-3,
F/A-18, S-3, and C-2 APUs into any other Honeywell Independent Research
and Development pools that will be allocated to any future Government
contracts.

Delivery of P-3 Kits and Impact on Increased Reliability. According to the
Naval Air Systems Command P-3 Accessory Change No. 1134, the scheduled
delivery of the kits to retrofit the 95-3 to the 95-10 APU will not begin until

                                        19
    March 2001 following the test of the first prototype in August 2000.
    Thereafter, the remainder of the kits will continue to be delivered at a rate of
    three kits per month over 5 years. While the TLS contract guarantees that the
    APUs for the entire P-3 platform increase the mean flight hours between
    unscheduled removals to 2,580 in the first year of the contract and 3,500 in
    subsequent years, we question the feasibility of the increased reliability. Since
    it will take Honeywell 5 years to provide the kits to retrofit all of the 95-2 and
    the 95-3 APUs, it is not possible for the entire P-3 platform to realize immediate
    increases in reliability as suggested by the TLS contract.

Summary
    The approved BCA is unreliable and should not be used as a basis for awarding
    the TLS contract. Accordingly, the contract should not be awarded until a BCA
    is prepared using sound reasoning and reliable data. Also, significant
    difficulties exist in developing, supporting, and testing economical and effective
    purchasing strategies. Various concurrent contracting initiatives affect each
    other and the impact on the different agencies and the overall impact on the
    DoD must be clearly addressed. Honeywell has a firm-fixed price contract
    based on flight hours per aircraft with NAVICP, under the terms of the TLS
    contract. Honeywell then has a cost reimbursable subcontract with NADEP-CP
    for the labor to repair the APUs while Honeywell supplies the materials. Under
    these two contracting arrangements, Honeywell could potentially earn
    significant profits, especially if the actual repair costs were overstated in the
    BCA or repair costs decrease while the flight hours and reliability increase.

Management Comments on the Finding and Audit Response
    Although not required to comment, the Deputy Under Secretary of Defense
    (Acquisition Reform) provided the following comments on the Finding. For the
    full text of Acquisition Reform comments, see the Management Comments
    section of the report.

    Acquisition Reform Comments on Innovative and Creative Procurement
    Practices. The Deputy Under Secretary commented that many of the
    recommendations made by the IG were based upon possible but unquantified
    scenarios of what could occur and that the IG was engaged in oversight practices
    that will, if unchecked, serve to thwart innovative and creative procurement
    practices. Further, that the report fails to recognize the positive aspects of
    innovative practices and that certainly, if these innovative practices are
    successfully applied, the taxpayer and warfighter would inevitably benefit.

    Audit Response. The report made 2 recommendations to NAVSUP and 11
    recommendations to NAVICP. Of the 13 recommendations, the Navy
    concurred with 10 of the recommendations in the report. The three remaining
    recommendations related to the P-3 LECP, executed in September 1998, were
    rendered moot with the award of the TLS contract. The IG will continue to
    support innovative and creative procurement practices that result in efficient and

                                        20
economical program. However, the IG does have an oversight role to ensure
that DoD resources are not wasted under the disguise of innovative practices.
We will closely monitor the results of the TLS contract and keep Acquisition
Reform apprised of its outcome.

Acquisition Reform Comments on Labor Rates. The Deputy Under Secretary
commented that if rates and overheads could be segregated into specific cost
centers where APU work is performed, then those rates should be used.

Audit Response. Based on discussions with the Navy after the draft report was
issued, the final report was revised using the labor and overhead rate from the
highest cost center working on the APUs. It was impossible to derive a rate
applicable to the situation; however, our use of the highest cost center was the
most conservative approach.

Acquisition Reform Comments on Prior Audit Coverage. The Deputy Under
Secretary of Defense commented that IG, DoD, Report No. 98-085, “Joint
Audit Report: Joint Contracting for Depot Maintenance of Secondary Items,”
March 4, 1998, was excluded from prior audit coverage. Further, the
comments continued that this exclusion was significant, because many of the
report’s recommendations have been incorporated into the Navy’s TLS contract.

Audit Response. We have included it in the final report. However, we fail to
recognize the significance of the report in regard to the Navy TLS contract.
The recommendations in the joint contracting report relate to “joint” contracting
between the Services’ contracting and logistics personnel, and DLA contract
personnel. The TLS contract relates only to the Navy. Further, both DLA and
the Air Force have separate initiatives underway chartered by the Acquisition
Reform office that should have addressed the Navy’s requirements.

Acquisition Reform Comments on Reducing the DoD Acquisition
Workforce. The Deputy Under Secretary commented that the Navy should be
recognized for trying to eliminate layers of management through streamlined
processes while reducing the DoD acquisition and related workforce.

Audit Response. We see no evidence of where the TLS contract will eliminate
any layers of management or help to reduce the DoD acquisition workforce, in
fact, the contract creates additional layers. The TLS contract establishes a new
contractor managed inventory at NADEP-CP to support the APUs in addition to
the Navy and DLA inventories already supporting other systems. Also, as
shown in Table 7, DLA is still responsible for procuring all the consumable
items needed to repair the APUs for customers other than NADEP-CP.

Acquisition Reform Comments on Contractor Incentives. The Deputy Under
Secretary commented that the report fails to mention the contractor incentives
and the significance of those incentives to limit the Navy’s risk.




                                   21
    Audit Response. During meetings with NAVICP, we questioned the
    significance of the TLS contract performance incentives. The TLS contract will
    be closely monitored to determine whether those performance incentives are
    sufficient.

Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Commander Naval Supply Systems Command
    issue guidance that:

           a. Directs the use of updated cost data in all business case analyses
              for those items that represent key cost drivers.

           b. Directs that actual costs associated with depot washout and
              carcass loss recovery rates be quantified before being used in
              business case analysis decisions to support DVD contracts.

    Navy Comments. The Navy partially concurred with Recommendation 1.a.,
    stating it concurred, if the intent was to simply use the most current pricing data
    available. The Navy stated that constructing a “should cost” repair price would
    be labor intensive and speculative since the “should cost” repair price may not
    match charges NAVICP is eventually billed by the repair facility. The Navy
    concurred with Recommendation 1.b., stating actual cost data is more precise
    and that it is analyzing alternatives for capturing the true impact of depot
    washout and carcass loss factors.

    Audit Response. The Navy comments are not responsive. Although the Navy
    partially concurred with Recommendation 1.a., using the current component
    repair prices based on actual cost data that is 3 to 4 years old is not adequate to
    support business case analyses decisions. At a minimum, the Navy needs to
    verify that component repair prices for the major cost drivers are in-line with
    current actual costs to repair the items. We request that the Navy reconsider its
    position on Recommendation 1.a. and provide additional comments in response
    to the final report. The Navy comments to Recommendation 1.b. were fully
    responsive.

    2. We recommend that the Commander Naval Inventory Control Point
       Philadelphia:

           a. Withhold the award of the total logistics support contract for
              aircraft auxiliary power units until a business case analysis is
              completed using reliable data and an appropriate methodology.

           b. Determine whether the 4.96 percent or less cost recovery rate
              applicable to the auxiliary power unit reparable items is sufficient
              to recover Naval Inventory Control Point-Philadelphia costs
              without raising the recovery rates for items not on the total
              logistics support contract.
                                        22
       c. Identify any additional surcharges applicable to the total logistics
          support contract.

       d. Withhold additional funds from Honeywell on the procurement of
          95-2 turbine wheels outside the total logistics support contract.

       e. Rewrite and resubmit the logistics engineering change proposal
          for the P-3 auxiliary power unit considering retrofitting 100 of
          the 95-2 units, use appropriate depot repair prices for the 95-2
          and 95-3 units, and base the retrofit schedule on availability of
          units and the delivery schedule of the retrofit kits.

       f. Modify the P-3 logistics engineering change proposal contract to
          obtain additional 95-2 retrofit kits versus 95-3 kits.

       g. Direct the Naval Aviation Depot, Cherry Point to stop stockpiling
          95-3 auxiliary power units.

       h. Direct that the total logistics support contract address the
          complete inventory drawdown for consumable items used by the
          Naval Aviation Depot, Cherry Point.

       i. Direct that an explanation be obtained from Honeywell on how its
          production schedule can be improved to meet demands under the
          total logistics services contract but cannot be improved to meet
          demands from the Defense Logistics Agency.

       j. Direct that a consistent methodology be established to measure
          any reliability increases/decreases for the APUs and base the TLS
          contract APU reliability baseline on that methodology.
       k. Direct that clauses in the total logistics support contract prohibit
          Honeywell from including any costs associated with technology
          insertion related to the P-3, F/A-18, S-3, and C-2 APUs into any
          other Honeywell Independent Research and Development pools
          that will be allocated to any future Government contracts.

Navy Comments. The Navy concurred with all recommendations except 2.e,
2.f., and 2.g., which related to the logistics engineering change proposal for the
P-3 aircraft, stating that the engineering change was rendered moot with award
of the total logistics support contract. The Navy concurred with
Recommendation 2.a., stating it manually calculated rates and revised the
business case analysis to show an overall benefit to the Navy of $32.6 million
and that at a June 2, 2000 meeting with the DoD IG, a decision was made to
award the contract. The Navy concurred with Recommendation 2.b. and 2.c.,
stating appropriate cost recovery rates would be used and any additional
surcharges applicable to the total logistics support contract would be identified.
The Navy concurred with Recommendation 2.d., stating there was no further
need for the 95-2 turbine wheel. The Navy concurred with Recommendation
2.h., stating an inventory drawdown provision had been incorporated in the total

                                    23
logistics support contract. The Navy concurred with Recommendation 2.i.,
stating Honeywell would place just-in-time delivery orders at a rate well within
its production capacity. The Navy concurred with Recommendation 2.j., stating
a consistent methodology was established to calculate reliability for the APUs
and it was included within the terms and conditions of the total logistics support
contract. The Navy concurred with Recommendation 2.k., stating that a clause
was inserted into the contract directing Honeywell to exclude any costs
associated with technology insertion related to the total logistics support contract
APUs from its independent research and development cost pools.

Audit Response. The Navy comments are partially responsive. While we did
not agree with the Navy’s calculation of benefits relating to the total logistics
support contract, the upper and lower bounds of risk associated with execution
of the contract were identified. During the June 2, 2000 meeting, the Navy
stated that even if risk associated with the total logistics support contract was at
the upper bound, meaning that the contract would cost more than the current
method of support, the risk was acceptable to the Navy. The Navy made the
decision to award the contract not the IG and time will show if the decision was
a wise one.

Acquisition Reform Comments. Although not required to comment, the
Deputy Under Secretary of Defense (Acquisition Reform) provided comments
on Recommendations 2.a., 2.d., and 2.k. The Deputy Under Secretary
disagreed with Recommendation 2.a., stating NADEP-CP performed
appropriate business case analyses and should be encouraged to award and begin
this novel initiative. The Deputy Under Secretary disagreed with
Recommendation 2.d., stating withholding of funds is a contractual action taken
to address a deficiency in work performed by the contractor. The Deputy
Under Secretary of Defense disagreed with Recommendation 2.k., stating
Honeywell is required to allocate independent research and development costs
over a base representing the total activity of that business unit. Further, that
independent research and development costs do not include costs of effort
required in performance of a contract.

Audit Response. We fail to understand why Acquisition Reform disagreed with
Recommendations 2.a., 2.d., and 2.k, when the Navy concurred with each of
the recommendations and agreed to take appropriate action. While we always
appreciate receiving comments on draft reports from the Under Secretary of
Defense for Acquisition, Technology, and Logistics, these comments merely
illustrate that Acquisition Reform has been out of the loop and has chosen not be
a prime player in this matter.

3. We recommend that the Director, Defense Logistics Agency determine
   the impact on effectiveness, consumable item prices, and customer cost
   recovery rates of changing consumable item support from the Defense
   Logistics Agency to contractor support for selective prime customers
   before the total logistics support contract is awarded. The impact
   should be reported to DoD and the Services.



                                     24
Management Comments. The Defense Logistics Agency concurred with the
recommendation stating that the overall impact to Agency’s effectiveness,
consumable item prices, and customer cost recovery rates for this one contract
is negligible. However, the cumulative effective of the Services’ future
initiatives for contractor logistics support could adversely impact the Defense
Logistics Agency if the agency is not included in the early planning and given
the opportunity to sell off consumable inventory and adjust future requirements
accordingly.




                                   25
Appendix A. Audit Process

Scope and Methodology
    Work Performed. We reviewed the BCA, statement of work, and terms and
    conditions for the proposed TLS contract with Honeywell for 76 reparable
    items. To assess the reasonableness of BCA-claimed cost savings, availability,
    and reliability improvements, we compared related supporting documentation to
    current data. Specifically, we obtained actual repair cost data for FY 1998
    through January 2000 from NADEP-CP on selected APU items that were key
    cost drivers. We reviewed all commercial procurement contracts for APU
    reparable items that were awarded from FY 1997 through December 2000 to
    determine the applicability of carcass loss and depot washout costs to APU
    items. We also reviewed the methodology, cost savings, and proposed
    reliability increases associated with the P-3 LECP. We researched the cause of
    low availability for APU items where the inability to obtain required parts
    prevented repair completion. To establish a current baseline for measuring
    reliability increases, we obtained MFHBUR data for CY 1999 from NAVAIR.
    We also met with NAVICP contracting, budget, and logistics personnel,
    NAVSUP budget analysts responsible for the BCA template and cost recovery
    rates, NADEP-CP equipment specialists responsible for computing NADEP
    repair prices, and NAVAIR personnel responsible for developing the MFHBUR
    baseline for measuring reliability increases.

    DoD-Wide Corporate Level Government Performance and Results Act
    (GPRA). In response to the GPRA, the Secretary of Defense annually
    establishes DoD-wide corporate level goals, subordinate performance goals, and
    performance measures. This report pertains to achievement of the following
    goal(s), subordinate performance goal(s), and performance measure(s):

           •   FY 2000 DoD Corporate Level Goal 2: Prepare now for an
               uncertain future by pursuing a focused modernization effort that
               maintains U.S. qualitative superiority in key warfighting capabilities.
               Transform the force by exploiting the Revolution in Military Affairs,
               and reengineer the Department to achieve a 21st century
               infrastructure. (00-DoD-2)

           •   FY 2000 Subordinate Performance Goal 2.3: Streamline the DoD
               infrastructure by redesigning the Department's support structure and
               pursuing business practice reforms. (00-DoD-2.3) FY 2000
               Performance Measure 2.3.1: Percentage of the DoD Budget Spent
               on Infrastructure. (00-DoD-2.3.1)




                                        26
       •   FY 2000 Subordinate Performance Goal 2.4: Meet combat forces'
           needs smarter and faster, with products and services that work better
           and cost less, by improving the efficiency of DoD acquisition
           processes. (00-DoD-2.4) FY 2000 Performance Measure 2.4.6:
           Reductions in the Acquisition Workforce (In percents).
           (00-DoD-2.4.6).

DoD Functional Area Reform Goals. Most major DoD functional areas have
also established performance improvement reform objectives and goals. This
report pertains to achievement of the following functional area objectives and
goals.

       Logistics Functional Area. Objective: Streamline logistics
       infrastructure. Goal: Implement most successful business practices
       (resulting in reductions of minimally required inventory levels).
       (LOG-3.1)

Use of Computer-Processed Data. To achieve the audit objectives, we relied
on computer-processed data from DLA and the Naval Inventory Control Point.
We queried the DLA Standard Automated Material Management System to
determine the number of APU-related consumable items that are managed by
DLA. The computer-processed data were determined reliable based on results
of recent spare parts audits at DLA. Nothing came to our attention as a result
of specified procedures that caused us to doubt the reliability of the computer
processed data.
Audit Type, Dates, and Standards. We performed this program audit from
December 1999 through April 2000 in accordance with auditing standards issued
by the Comptroller General of the United States, as implemented by the
Inspector General, DoD. The scope of the audit was limited in that we did not
review the management control program.

Contacts During the Audit. We visited or contacted individuals within the
DoD. Further details are available on request.




                                   27
Appendix B. Prior Coverage
     During the last 5 years, the General Accounting Office has issued two audit
     reports and the Inspector General, DoD, has issued seven audit reports
     discussing either contractor estimating systems or prices for spare parts in the
     acquisition reform environment.

General Accounting Office
     General Accounting Office Report No. NSIAD-99-90, "DoD Pricing of
     Commercial Items Needs Continued Emphasis," June 1999.

     General Accounting Office Report No. NSIAD-94-153, "Contract Pricing, DoD
     Management of Contractors with High Risk Cost-Estimating Systems,"
     July 1994.

Inspector General, DoD
     Inspector General, DoD, Report No. D-2000-099, "Procurement of the
     Propeller Blade Heaters for the C-130 and P-3 Aircraft," March 8,2000*

     Inspector General, DoD, Report No. D-2000-098, "Spare Parts and Logistics
     Support Procured on a Virtual Prime Vendor Contract," March 8, 2000*

     Inspector General, DoD, Report No. 99-218, "Sole-Source Noncommercial
     Spare Parts Orders On a Basic Ordering Agreement," July 27, 1999.*

     Inspector General, DoD, Report No. 99-217, "Sole-Source Commercial Spare
     Parts Procured on a Requirements Type Contract," July 21, 1999.*

     Inspector General, DoD, Report No. 99-026, "Commercial Spare Parts
     Purchased on a Corporate Contract," October 30, 1998.*




                                         28
        Inspector General, DoD, Report No. 98-088, "Sole-Source Prices for
        Commercial Catalog and Noncommercial Spare Parts," March 11, 1998.*

        Inspector General, DoD, Report No. 98-085, “Joint Audit Report: Joint
        Contracting for Depot Maintenance of Secondary Items,” March 4, 1998.

        Inspector General, DoD, Report No. 98-064, "Commercial and Noncommercial
        Sole-Source Items Procured on Contract N000383-93-G-M111," February 6,
        1998.**




*Only redacted versions of these reports will be available on the Internet at
 www.dodig.osd.mil/audit/reports. These reports relate to the series of reports discussed in the
 Executive Summary and elsewhere in this report.




                                                   29
Appendix C. Demands and Prices for Reparable Items on the
            Total Logistics Support Contract
       C-2 Aircraft                                                           Business Case Analysis
                                                                                             Total (10 years)
 Family                                                            FY 1998    FY 1999
 Group          NIIN         Part No.          Description         Demands   Unit Prices Demands         Price

MXSB-M        012168194     3800154-1     Power unit, gas turb        4      $33,325.60     40        $1,333,024
MXSB-M        012568378   123SCP6002-15   Power unit, gas turb        6       33,325.60      60        1,999,536
MXSB-H        013647323    3800154-1-6    Power unit, gas turb       12       33,325.60     120        3,999,072
  H           012270014     2118220-1      Control unit, electr      7           642.00     70            44,940
  H           012718681      109826-2       Valve, butterfly         3         1,992.00     30            59,760
  H           013028594     3842061-2     Compressor rotor, ax       0         6,073.00      0                 0
  H           013028639     518954-1-1       Starter, motor          0                       0                 0
  H           013140597     3882350-8      Fuel control assem        0         2,982.00      0                 0
  H           013163462     3862400-1      Gearbox assembly          2        19,224.00      20          384,480
  H           012718852    126656-10-1    Actuator, electro – pn                                            0.00
DF7A-H        013360222     109826-2-3      Valve, butterfly                                                0.00
DF7A-M        013193111                     Valve, assembly                                                 0.00

 C-2 Total                                                           34                     340       $7,820,812




                                                    30
      F/A-18 Aircraft                                                          Business Case Analysis
                                                                                               Total (10 years)
  Family                                                            FY 1998    FY 1999
  Group          NIIN         Part No.          Description         Demands   Unit Prices Demands          Price
ADJA-M         011506998     109814-1-1     Valve assembly, surg        5      $2,448.00      50           $122,400
ADJA-M         011970574     109814-2-1     Valve assembly, surg        0                      0                  $0
ADJA-M         012630180     109814-1-1     Valve, control, autom       6       2,448.00      60            146,880
ADJA-H         013928098     109840-1-2      Valve, safety relief      18       2,448.00     180            440,640
AHWA-M         011136888    3882350-4-1      Fuel control assem        2        2,982.00      20              59,640
AHWA-H         012122930     382350-4-2      Fuel control assem        20       2,982.00     261            778,302
 B83A-M        011471066     4100143-2        Motor, hydraulic         46       2,120.00     460            975,200
 B83A-M        014328441     4100143-4        Motor, hydraulic          0       2,120.00       0                   0
 B83A-H        014328442                      Motor, hydraulic          0       2,120.00     116            245,920
GQ2B-M         011190792   74A540010-1015   Power unit, gas turb        0                      0                   0
GQ2B-M         011507135     3800076-3-4    Power unit, gas turb        1      37,774.55      10            377,746
GQ2B-M         011507136   74A540010-1019   Power unit, gas turb        0                      0                   0
GQ2B-M         012539589     3800076-4-5    Power unit, gas turb        3      37,774.55      30          1,133,237
GQ2B-M         012572713     3800076-4-4     Engine, gas turbine        1      37,774.55      10            377,746
GQ2B-H         013478038      3800076-5     Power unit, gas turb       61      37,774.55     610         23,042,476
MF3A-M         011190746      3801000-9     Compressor, axial, tu       0                      0                   0
MF3A-M         011507073     3801000-11     Compressor, axial, tu       0                      0                   0
MF3A-H         012706069     3801000-12     Compressor, axial, tu      12      32,382.00     120          3,885,840
    H          011148629      3862076-6     Gearbox, accessory d       17      19,225.00     170          3,268,250
    H          011507085      126656-8-1    Cylinder assembly, a       71       3,003.12     913          2,741,849
    H          011526034     2101554-6-1    Control unit assembly      16       2,146.57     160            343,451
    H          011903045      3842061-1     Compressor rotor, ce       32      11,778.00     409          4,817,202
  F/A-18 Total                                                        311                   3,579       $42,756,777




                                                      31
     P-3 Aircraft                                                         Business Case Analysis
                                                                                         Total (10 years)
 Family                                                        FY 1998    FY 1999
 Group        NIIN        Part No.          Description        Demands   Unit Prices Demands         Price
BRSB-H      010349473    124536-31      Fuel control unit, t     117      $2,001.00      964.25 $1,929,464
BVCA-H      000679480    371976-15     Pump assembly, oil         5        1,718.00       41.25         70,868
E4YB-H      004205512     899155-5    Chamber, combustion        23           773.00     189.75       146,677
E4YB-M      009084361     899155-2    Chamber, combustion
FQVA-M      003374818     152050-2     Cooler, lubricating        2           88.99       20.00         1,780
M14B-M      009089309     380258-1     Engine, gas turbine                47,210.00       35.00     1,652,350
M14B-M      009089309     380258-1     Engine, gas turbine       38       47,210.00      250.00    11,802,500
M14B-H      010732509    381250-1-1    Engine, gas turbine                47,210.00      175.00     8,261,750
M14B-H      010732509    381250-1-1    Engine, gas turbine       86       47,210.00       59.00     2,785,390
M14B-H      010732509        -10       Engine, gas turbine                47,210.00      180.00     8,497,800
   H        001463227     696161-1    Wheel and shaft assy       65        6,640.00      536.25     3,560,700
   H        001705126     379537-9    Housing assembly, di       13        2,621.00      107.25       281,102
   H        006825367      75976-7      Rotating assy, fan        1          787.00       10.00         7,870
   H        009030840     109382-5        Valve, shut-off        79        1,523.00      651.75       992,615
   H        009066251    372697-10     Starter, engine, elec     52        2,403.00      520.00     1,249,560
   H        009082497    379794-60        Torus assembly         25        3,299.00      206.25       680,419
   H        009082535     695055-1       Switch assembly         52        1,093.00      520.00       568,360
   H        010394351    976979-18     Housing, antifriction      0                        0.00             0
   H        010447730     698192-4    Impeller, compressor        1        1,320.00        4.75         6,270
   H        012200386    3601193-3     Atomizer assembly          7          734.00       70.00        51,380
   H        012200524    3602310-9    Fuel control, starting     28        2,582.00      133.00       343,406
   H        012207435   109382-23-1       Valve, shut-off        18        1,476.00      180.00       265,680
   H        012207436    3603617-1    Switch assembly, eng       25        1,250.00      250.00       312,500




                                                32
    P-3 Aircraft cont’d                                                      Business Case Analysis
                                                                                            Total (10 years)
 Family                                                           FY 1998    FY 1999
 Group          NIIN       Part No.           Description         Demands   Unit Prices Demands         Price
   H          012212955   3605384-3       Liner, Combustion          7        2,833.00       33.25         94,197
   H          012212956   371976-24         Pump, Rotary             2        2,208.00       20.00         44,160
   H          012213247   3605812-18     Starter, Engine, Elec      32        1,979.00      320.00       633,280
   H          012260584    695655-4      Accessory Assembly          3        3,194.00       14.25         45,515
   H          012260637    695321-2      Housing, Centrifugal        1        1,122.42        4.75           5,331
   H          012286363    968959-6     Torus Assembly, Turb         0                        0.00               0
   H          012688184    698195-4     Housing, Assembly, Di        0                        0.00               0

 P-3 Total                                                          682                    5,496     $44,290,924

      S-3 Aircraft
B83A-M       011471066    4100143-2       Motor, hydraulic                                                     $0
B83A-M       014328441                    Motor, hydraulic                                                      0
B83A-H       014328442                    Motor, hydraulic                                                      0
CLCB-H       014374059    2117960-3     Electrical control unit     37       $1,221.23     370            451,855
CLCB-M       013098244                   Control unit outlin        50        1,221.23     500            610,615
DF7A-H       013360222    109826-2-3       Valve, butterfly         14        1,386.00     140            194,040
DF7A-M       013193111                     Valve, butterfly         12        1,386.00     120            166,320
EQBA-H       014119602    3800152-4-2    Engine, gas turbine        54       49,712.11     540         26,844,539
EQBA-M       012718891    3800152-3-1    Engine, gas turbine        31       49,712.11     310         15,410,754
   H         012718787     3840261-3       Impeller group           20        1,869.00     200            373,800
   H         012718794     3862300-2     Gearbox assembly            0                      0                   0
   H         014113398     3862300-5     Gearbox assembly




                                                   33
   S-3 Aircraft cont’d                                                     Business Case Analysis
                                                                                           Total (10 years)
Family                                                          FY 1998    FY 1999
Group          NIIN        Part No.         Description         Demands   Unit Prices Demands          Price
  H          012718799    3880370-4    Lubrication assembly        0                       0                   0
  H          012718850     160250-1     Cooler, lubricating        0                       0                   0
  H          012718852   126656-10-1   Actuator, electro – pn     20        4,607.00     200            921,400
  H          012727850    3882350-9    Fuel control, assemb       15        3,437.00     150            515,550
  H          014117051    2704466-2    Generator, alternating      6        1,200.00      60              72,000
  H          014172170    3880370-5     Oil Pump assy, engi        0                       0                   0
  H          012992031                  Valve, regulating te       0                       0                   0
  H          013091368                     Fan, vaneaxial          0                       0                   0

S-3 Total                                                         259                    2,590     $45,560,874

 Total                                                                                            $140,429,386




                                                 34
Appendix D. Business Case Analysis and Actual Cost Comparison
               Business Case Analysis                                Calculations Based on Actual Costs 1998-2000
                Demands       FY 1999                Review Items   High                       Low                            Difference
  NIIN       FY 1998 Total Unit Price    Total Price  Total Price Unit Price Total Price    Unit Price Total Price      Low            High

   C-2
012168194       4      40   $33,325.60   $1,333,024    $1,333,024     $45,965    $1,838,600    $32,175    $1,287,000   -$505,576        $46,024
012568378       6      60    33,325.60    1,999,536     1,999,536      35,712     2,142,720     26,188     1,571,280    -143,184        428,256
013647323      12     120    33,325.60    3,999,072     3,999,072      23,203     2,784,360     19,170     2,300,400   1,214,712      1,698,672
012270014       7      70       642.00       44,940
012718681       3      30     1,992.00       59,760
013028594       0       0     6,073.00            0
013028639       0       0                         0
013140597       0       0     2,982.00            0
013163462       2      20    19,224.00      384,480
012718852
013360222
013193111

 Total C-2                               $7,820,812    $7,331,632                $6,765,680              $5,214,480.   $565,952      $2,117,152
                                                                                                                         7.72%          28.88%
  F/A-18
011506998       5      50    $2,448.00     $122,400
011970574       0       0                         0
012630180       6      60     2,448.00      146,880
013928098      18     180     2,448.00      440,640       440,640        $995      $179,100       $928      $167,040   $261,540        $273,600
011136888       2      20     2,982.00       59,640        59,640       2,900        58,000      2,900        58,000      1,640           1,640
012122930      20     261     2,982.00      778,302       778,302       1,984       517,824      1,984       517,824    260,478         260,478




                                                                35
              Business Case Analysis                                  Calculations Based on Actual Costs 1998-2000
               Demands       FY 1999                  Review Items   High                       Low                             Difference
  NIIN      FY 1998 Total    Unit Price   Total Price  Total Price Unit Price Total Price    Unit Price Total Price       Low            High
  F/A-18
011471066       46     460    $2,120.00      $975,200     $975,200      $2,616    $1,203,360     $2,128      $978,880     -228,160        -$3,680
014328441        0       0     2,120.00             0
014328442        0     116     2,120.00       245,920      245,920       9,394     1,089,704      2,348       272,368     -843,784        -26,448
011190792        0       0                          0
011507135        1      10    37,774.55       377,746      377,746      31,725       317,250     23,793       237,930      60,496         139,816
011507136        0       0                          0
012539589        3      30    37,774.55     1,133,237     1,133,237     23,469       704,070     23,469       704,070     429,167         429,167
012572713        1      10    37,774.55       377,746
013478038       61     610    37,774.55    23,042,476    23,042,476     35,802    21,839,220     28,130    17,159,300    1,203,256      5,883,176
011190746        0       0                          0
011507073        0       0                          0
012706069       12     120    32,382.00     3,885,840     3,885,840     20,613     2,473,560     14,645     1,757,400    1,412,280      2,128,440
011148629       17     170    19,225.00     3,268,250     3,268,250      2,743       466,310      2,228       378,760    2,801,940      2,889,490
011507085       71     913     3,003.12     2,741,849     2,741,849      1,914     1,747,482      1,859     1,697,267      994,367      1,044,582
011526034       16     160     2,146.57       343,451
011903045       32     409    11,778.00     4,817,202     4,817,202     12,835     5,249,515      6,418     2,624,962     -432,313      2,192,240

 Total F/A-18                             $42,756,777   $41,766,300              $35,845,395              $26,553,801   $5,920,905    $15,212,499
                                                                                                                           14.18%         36.42%
   P-3
010349473       117   964.25 $2,001.00     $1,929,464    $1,929,464     $1,782    $1,718,294     $1,774    $1,710,580    $211,171        $218,885
000679480         5    41.25 1,718.00          70,868
004205512        23   189.75    773.00        146,677
009084361
003374818        2     20.00     88.99          1,780
009089309              35.00 47,210.00      1,652,350     1,652,350     57,111     1,998,885     45,985     1,609,475     -346,535         42,875
009089309       38    250.00 47,210.00     11,802,500    11,802,500     57,111    14,277,750     45,985    11,496,250   -2,475,250        306,250


                                                                 36
               Business Case Analysis                                  Calculations Based on Actual Costs 1998-2000
                Demands       FY 1999                  Review Items   High                       Low                               Difference
  NIIN       FY 1998 Total    Unit Price   Total Price  Total Price Unit Price Total Price    Unit Price Total Price         Low            High

   P-3
010732509              175.00 $47,210.00    $8,261,750    $8,261,750    $37,216 $6,512,800         $35,498     $6,212,150 $1,748,950      $2,049,600
010732509      86       59.00 47,210.00      2,785,390     2,785,390     37,216      2,195,744      35,498      2,094,382      589,646       691,008
010732509              180.00 47,210.00      8,497,800     8,497,800     37,216      6,698,880      35,498      6,389,640    1,798,920     $,108,160
001463227      65      536.25 6,640.00       3,560,700                   Cost of turbine wheel included in engine cost
001705126      13      107.25 2,621.00         281,102                        Cost of housing assembly included in engine cost
006825367       1       10.00     787.00         7,870
009030840      79      651.75 1,523.00         992,615       992,615     1,779       1,159,463       1,767     1,151,642     -166,848       -159,027
009066251      52      520.00 2,403.00       1,249,560     1,249,560     1,924       1,000,480       1,807       939,640      249,080        309,920
009082497      25      206.25 3,299.00         680,419                  Cost of torus assembly included in engine cost
009082535      52      520.00 1,093.00         568,360      568,360      1,297         674,440       1,269       659,880     -106,080        -91,520
010394351       0        0.00                        0
010447730       1        4.75 1,320.00           6,270
012200386       7       70.00     734.00        51,380
012200524      28      133.00 2,582.00         343,406
012207435      18      180.00 1,476.00         265,680
012207436      25      250.00 1,250.00         312,500
012212955       7       33.25 2,833.00          94,197
012212956       2       20.00 2,208.00          44,160
012213247      32      320.00 1,979.00         633,280      633,280       1,883       602,560       1,856       593,920        30,720         39,360
012260584       3       14.25 3,194.00          45,515
012260637       1        4.75 1,122.42           5,331
012286363       0        0.00                        0
012688184       0        0.00                        0

 Total P-3                                 $44,290,924   $38,373,070              $36,839,296               $32,857,559    $1,533,774     $5,515,511
                                                                                                                               4.00%         14.37%




                                                                  37
                     Business Case Analysis                         Calculations Based on Actual Costs 1998-2000
                Demands       FY 1999               Review Items   High                       Low                                 Difference
  NIIN       FY 1998 Total   Unit Price Total Price  Total Price Unit Price Total Price    Unit Price Total Price           Low            High

   S-3
011471066
014328441
014328442
014374059      37      370    $1,221.23        $451,855
013098244      50      500     1,221.23         610,615
013360222      14      140     1,386.00         194,040
013193111      12      120     1,386.00         166,320
014119602      54      540    49,712.11      26,844,539   $26,844,539   $50,447 $27,241,380      $42,732    $23,075,280    -$396,841     $3,769,259
012718891      31      310    49,712.11      15,410,754    15,410,754    40,408 12,526,480        36,650     11,361,500    2,884,274      4,049,254
012718787      20      200     1,869.00         373,800       373,800    13,251   2,650,200        6,212      1,242,400   -2,276,400       -868,600
012718794       0       0                             0
014113398
012718799       0        0                           0
012718850       0        0                           0
012718852      20      200      4,607.00       921,400       921,400      1,947       389,400      1,947       389,400      532,000         532,000
012727850      15      150      3,437.00       515,550       515,550      2,110       316,500      2,110       316,500      199,050         199,050
014117051       6       60      1,200.00        72,000
014172170       0        0                           0
012992031       0        0                           0
013091368       0        0                           0

 Total S-3                                  $45,560,874   $44,066,044              $43,123,960              $36,385,080    $942,083      $7,680,964
                                                                                                                             2.14%          17.43%

                                           $140,429,386 $131,537,045              $122,574,331             $101,010,920   $8,962,714    $30,526,125
                                                                                        -6.81%                 -23.21%        6.81%         23.21%



                                                                  38
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Acquisition Reform)
  Deputy Under Secretary of Defense (Logistics)
  Director, Defense Logistics Studies Information Exchange
  Director, Defense Procurement
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Research Development and Acquisition)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Air Systems Command
  Commanding Officer, Naval Aviation Depot, Cherry Point
Commander, Naval Supply Systems Command
  Commander, Naval Inventory Control Point

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency




                                          39
Other Defense Organizations (cont’d)
   Commander, Defense Supply Center Columbus
   Commander, Defense Supply Center Richmond
   Commander, Defense Industrial Supply Center Philadelphia
Commander, Defense Contract Management Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency

Non-Defense Federal Organizations
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
  General Accounting Office
Office of Federal Procurement Policy


Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on Defense, Committee on Appropriations
  House Committee on Armed Services
  House Committee on Government Reform
  House Subcommittee on Government Management, Information, and Technology,
    Committee on Government Reform
  House Subcommittee on National Security, Veterans Affairs, and International
    Relations, Committee on Government Reform




                                           40
Department of Navy Comments




                 41
42
43
44
45
46
Defense Logistics Agency Comments




                  47
48
49
Under Secretary of Defense (Acquisition and
Technology) Comments




                   50
51
52
53
54
55
Audit Team Members
   The Contract Management Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report.

          Paul J. Granetto
          Terry L. McKinney
          Henry F. Kleinknecht
          Sharon N. Vasquez
          Myra M. Frank
